TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Statistical Portrayal of the Indian
                           Tribal Government Office’s
                       Enforcement Activities From Fiscal
                       Year 2002 Through Fiscal Year 2005



                                         August 23, 2006

                              Reference Number: 2006-10-121




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 23, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Statistical Portrayal of the Indian Tribal
                                Government Office’s Enforcement Activities From
                                Fiscal Year 2002 Through Fiscal Year 2005 (Audit # 200610008)

 This report presents the results of our review of the Indian Tribal Governments (ITG) office’s
 enforcement data. The overall objectives of this audit were to review relevant Fiscal Years (FY)
 2002 through 2005 statistical data for the ITG office enforcement activities and analyze the data
 for trends.
 The ITG office is responsible for administering Federal tax laws for the 564 Federally
 recognized Indian tribal governments and their approximately 2,100 related entities. The
 emergence and growth of the tribal economies is fueled largely by gaming1 and represents one of
 the fastest growing segments of the economy. From Tax Year 2000 to Tax Year 2001, tribal
 employment grew by 22 percent, and 9 of 10 newly hired employees of tribal entities were
 attributed to the gaming market segment. The ITG office’s primary method of ensuring
 compliance with the Internal Revenue Code is through its Examination Program. In addition, the
 ITG office must ensure the Internal Revenue Service (IRS) complies with the treaty provisions
 that establish rights of tribal governments and Executive Order 13175 (dated
 November 6, 2000),2 which outlines the Government-to-Government relationships between
 the IRS and individual tribal governments.



 1
   There are three classes of gaming: Class I consists of social games for prizes of nominal value; Class II consists of
 games such as bingo or lotto; and Class III consists of card games, dog and horse racing, and all other types of
 casino gaming.
 2
   Consultation and Coordination With Indian Tribal Governments, Exec. Order No. 13175, 3 C.F.R. 304 (2001),
 reprinted in 25 U.S.C. Section (§) 450 (2001).
                    Statistical Portrayal of the Indian Tribal Government Office’s
                                     Enforcement Activities From
                             Fiscal Year 2002 Through Fiscal Year 2005



Synopsis
The number of ITG office Full-Time Equivalents (FTE)3
applied to conducting examinations almost doubled
between FYs 2002 and 2004.4 In contrast, the number of                   The ITG office committed a
                                                                            higher percentage of
FTEs available to the ITG office overall increased only
                                                                       resources to the Enforcement
slightly over the same period, which indicates the                        Program from FY 2002 to
percentage increase in Examination FTEs is greater than                  FY 2004, but examinations
the percentage increase for the ITG office’s overall                      have declined due to the
FTEs. This higher percentage for examination activities                 increasing complexity of the
                                                                                 closures.
is consistent with the IRS’ commitment to direct more
resources to its Enforcement Program areas.
Despite this increase in FTEs, the ITG office completed fewer examinations in FYs 2004 and
2005 than in FYs 2002 and 2003. ITG office management informed us they were faced with a
backlog of claims that had been in suspense pending the outcome of a legislative change5
involving Federal unemployment taxes and a Supreme Court case6 related to wagering excise
taxes. Once these issues were resolved in late 2001, the ITG office began to close claims cases
in FY 2002 that did not recur in later years. As the ITG office moved into more traditional
examination work in FY 2004, the increasing complexity resulted in fewer case closures. In
addition, approximately 75 percent of examinations closed during FYs 2002 through 2005
resulted in no dollar change to a past or current tax liability; 25 percent resulted in dollar
adjustments.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report findings.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Acting
Assistant Inspector General for Audit (Headquarters Operations and Exempt Organizations
Programs), at (202) 622-8500.



3
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FYs 2002 and 2003, 1 FTE was equal to 2,088 staff hours; for FY 2004, 1 FTE was equal
to 2,096 staff hours.
4
  The total FTEs applied to the Examination Program were not available for FY 2005.
5
  Federal Unemployment Tax Act, 26 U.S.C. §§ 3301-3312 (2003).
6
  Chickasaw Nation v. United States, 534 U.S. 84 (2001).
                                                                                                                2
                        Statistical Portrayal of the Indian Tribal Government Office’s
                                         Enforcement Activities From
                                 Fiscal Year 2002 Through Fiscal Year 2005




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – List of Tax Forms.................................................................Page 21
                     Statistical Portrayal of the Indian Tribal Government Office’s
                                      Enforcement Activities From
                              Fiscal Year 2002 Through Fiscal Year 2005




                                              Background

The Indian Tribal Governments (ITG) office was established as part of the Internal Revenue
Service (IRS) Tax Exempt and Government Entities Division in Fiscal Year (FY) 2000. The
mission of the ITG office is to provide its customers top-quality services, by helping them
understand and comply with applicable laws, and to protect the public interest by applying the
tax law with integrity and fairness to all. In addition, the ITG office must ensure the IRS
complies with the treaty provisions that establish rights of tribal governments (tribes) and
Executive Order 13175 (dated November 6, 2000),1 which outlines the
Government-to-Government relationships between the IRS and individual tribes.
The ITG office is responsible for administering Federal tax laws for the 564 Federally
recognized Indian tribes and their approximately 2,100 related entities. The emergence and
growth of the tribal economies is fueled largely by gaming2 and represents one of the fastest
growing segments of the economy. From Tax Year 2000 to Tax Year 2001, tribal employment
grew by 22 percent, and 9 of 10 newly hired employees of tribal entities were attributed to the
gaming market segment.
ITG office enforcement activities consist of examinations of taxpayers who have filed tax returns
or those who have not filed a return either because (1) they are not in compliance with the tax
law or (2) they have not been required to file previously. Examinations are conducted for several
types of returns, including information returns and employment tax returns.3 Examinations can
result in no change to the tax due, assessments of additional tax or penalties, or a reduction in
tax. Additionally, the tax return could be referred to the Small Business/Self-Employed (SB/SE)
Division Lead Development Center4 or to the Criminal Investigation function for further review.
The ITG office and SB/SE Division share enforcement tasks for ITG office customers.
•   The ITG office is responsible for examining the various employment taxes, excise taxes, and
    information reporting for the tribal entities.



1
  Consultation and Coordination With Indian Tribal Governments, Exec. Order No. 13175, 3 C.F.R. 304 (2001),
reprinted in 25 U.S.C. Section (§) 450 (2001).
2
  There are three classes of gaming: Class I consists of social games for prizes of nominal value; Class II consists of
games such as bingo or lotto; and Class III consists of card games, dog and horse racing, and all other types of
casino gaming.
3
  See Appendix IV for a list of IRS tax forms used by the tribes.
4
  The SB/SE Division Lead Development Center centralizes the receipt and development of leads on abusive tax
schemes and promoters, as well as the authorization and referral of Internal Revenue Code Section 6700
investigations.
                                                                                                               Page 1
                     Statistical Portrayal of the Indian Tribal Government Office’s
                                      Enforcement Activities From
                              Fiscal Year 2002 Through Fiscal Year 2005



•   The SB/SE Division is responsible for examining tribal entities to determine whether they are
    complying with the anti-money laundering statutes. The ITG office is responsible for
    selecting the entities for the SB/SE Division to examine.
Additionally, if the ITG office identifies misconduct that should be investigated under Internal
Revenue Code (I.R.C.) Section (§) 6700,5 those cases are referred to the SB/SE Division or the
Criminal Investigation function.
This review was performed at the ITG National Headquarters office in Washington, D.C., and
the Compliance and Program Management6 office in Buffalo, New York, during the period
October 2005 through June 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




5
  I.R.C. § 6700 (2004) imposes a penalty for promoting an abusive tax shelter while making a false or fraudulent
misrepresentation as to any material matter or for making a material gross valuation overstatement as to any material
matter.
6
  The Compliance and Program Management office was previously known as the Outreach, Planning, and Review
office.
                                                                                                             Page 2
                    Statistical Portrayal of the Indian Tribal Government Office’s
                                     Enforcement Activities From
                             Fiscal Year 2002 Through Fiscal Year 2005




                                     Results of Review

Prior to establishment of the ITG office, the IRS did not have a coordinated effort to interact with
tribes and had not identified the full customer population or the compliance needs within that
customer base. The ITG office spent its first several years performing education and outreach to
identify its customers and gradually transitioned to performing work (examinations) to enforce
compliance with the I.R.C. during FYs 2002 through 2005. We identified the following trends
from our analysis of ITG office data for FYs 2002 through 2005.

Resources applied to Examination Program activities in the ITG office
The number of Full-Time Equivalents (FTE)7 applied to conducting examinations (Examination
FTEs) in the ITG office almost doubled between FYs 2002 and 2004.8 In contrast, the number of
FTEs available to the ITG office overall increased only slightly over the same period, which
indicates the percentage increase in Examination FTEs is greater than the percentage increase for
the ITG office’s overall FTEs. This higher percentage for examination activities is consistent
with the IRS’ commitment to direct more resources to the Enforcement Program areas. Figure 1
presents FTE usage for FYs 2002 through 2004.




7
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FYs 2002 and 2003, 1 FTE was equal to 2,088 staff hours; for FY 2004, 1 FTE was equal
to 2,096 staff hours.
8
  The total FTEs applied to the Examination Program were not available for FY 2005.
                                                                                                         Page 3
                                    Statistical Portrayal of the Indian Tribal Government Office’s
                                                     Enforcement Activities From
                                             Fiscal Year 2002 Through Fiscal Year 2005



                 Figure 1: Total ITG Office FTEs Versus Examination FTEs
                                     (FYs 2002 – 2004)

                                    60.0

                                           55.1                                            56.8
                                    50.0                            52.5
                   Number of FTEs




                                    40.0
                                                                                                  39.0
                                                                           36.0
                                    30.0
                                                  30.0
                                    20.0
                                                                                  11.1                   11.9
                                                         6.6
                                    10.0

                                     0.0
                                                  2002                     2003                   2004
                                                                     Fiscal Years

                                           Total FTEs      Fully Loaded Examination FTEs   Examination FTEs

              Source: Analysis of the ITG office Tax Exempt and Government Entities Division Technical Time
              Reporting System (ETS)9 data.


Fully Loaded Examination FTEs include the Examination FTEs and allocations of indirect time
categories such as Indirect Administration, Management, Training, and Details and Leave. The
Examination FTEs presented do not include the time charged to Title 31 Education and
Outreach.10 The data analyses that follow include only direct examination time; they do not
include allocations of indirect time, such as training and annual leave.
The increase in the number of Examination FTEs from FY 2002 through FY 2004 can be
attributed to the ITG office shifting its resource usage to conduct more examinations.

Total examinations conducted
Several different statistics can give an indication of the impact of the ITG office Examination
Program on compliance. One statistic is the total number of examinations completed each year.

9
  The ETS is a stand-alone DOS-based software application designed and developed to enable electronic tracking
and reporting of technical time.
10
   Title 31 Education and Outreach is a category that the ITG office field specialists charge time to when making
presentations to tribal officials about the Bank Secrecy Act (Titles I and II of Pub. L. No 91-508, 84 Stat. 1114
(1970), as amended, codified at 12 U.S.C. §§ 1829b, 1951-1959, and 31 U.S.C. §§ 5311-5322).
                                                                                                                Page 4
                                          Statistical Portrayal of the Indian Tribal Government Office’s
                                                           Enforcement Activities From
                                                   Fiscal Year 2002 Through Fiscal Year 2005



Figure 2 shows the ITG office closed 1,470 examinations during FYs 2002 through 2005. The
total number of examinations closed in FY 2002 is understated because the ITG office had
incomplete data for that year.11
A comparison of Figures 1 and 2 shows fewer examinations were completed in FYs 2004 and
2005 than in the prior 2 fiscal years, despite the number of FTEs for the Examination Program
increasing through FY 2004.
                      Figure 2: Number of Examinations Closed, by Fiscal Year
                                        (FYs 2002 – 2005)

                                         500
                                         450
                Number of Cases Closed




                                         400
                                         350      419          445
                                         300
                                         250                                       308    298
                                         200
                                         150
                                         100
                                          50
                                           0
                                                 2002         2003                 2004   2005
                                                                     Fiscal Year

             Source: Analysis of ITG office case closure information.

ITG office management informed us they were faced with a backlog of claims that had been in
suspense pending the outcome of a legislative change involving Federal unemployment
(FUTA)12 taxes and a Supreme Court case13 related to wagering excise taxes. Once these issues
were resolved in late 2001, the ITG office began to close claims cases that did not recur in later
years. As the ITG office moved into more traditional examination work in FY 2004, the
increasing complexity resulted in fewer case closures.
Figure 3 lists the specific types of examinations closed by the ITG office during FYs 2002
through 2005. Most examinations involved employment taxes, excise taxes, and penalty claims.


11
   The number of examinations closed in FY 2002 is understated because the ITG office did not retain data for
Penalty Claims examined and closed prior to July 1, 2002; an additional 40 examinations closed in FY 2002 were
not included because the data were incomplete.
12
   Federal Unemployment Tax Act, 26 U.S.C. §§ 3301-3312 (2003).
13
   Chickasaw Nation v. United States, 534 U.S. 84 (2001).
                                                                                                         Page 5
                    Statistical Portrayal of the Indian Tribal Government Office’s
                                     Enforcement Activities From
                             Fiscal Year 2002 Through Fiscal Year 2005



                       Figure 3: Number of Examinations Closed, by Type
                                      (FYs 2002 – 2005)
                                                           Fiscal Year
          Type of Examination Case         2002         2003           2004         2005         Totals


        Employment Tax14                          140             96          53                      289
        Excise Tax15                              270          198            128                     596
        Claims for Refund                                                                  13             13
        Delinquency Follow-Up                                                              52             52
        Gaming Initiative                                                                   2              2
        Information Reporting            ****1**** ****1**** ****1**** ****1****                ****1****
        Penalty                          ****1**** ****1**** ****1**** ****1**** ****1****
        Penalty Claim                               6          126             91      108            331
        Return Examination                                                                 70             70
        Tip Rate Review                                            7            5           3             15
        Tip Rate Solicitation                       3             14          30           19             66
        Totals                                    419          445            308      298          1,470
       Source: Analysis of ITG office case closure information.




Examination of compliant and noncompliant returns
Generally, one indication of the effectiveness of selecting and examining tax documents for
compliance with the I.R.C. is calculation of the change and no-change rates. No-change
examinations are closed without a change to the tax documents (i.e., at the completion of the
examination, the tax documents are accepted as filed without change and there is no change to
the tax liability); change examinations are closed with a change to either the tax documents or
the tax liability. Most IRS business units differentiate between examinations resulting in
changes to tax documents and examinations resulting in changes in tax liability and track them
separately. For example, the designation “no change with adjustment” is often used to track
examinations in which there is no change to the underlying tax liability but there has been a

14
 These employment tax cases include some claims for refund related to the FUTA.
15
 These excise tax cases include some claims for refund related to the Supreme Court case Chickasaw Nation v.
United States.
                                                                                                               Page 6
                     Statistical Portrayal of the Indian Tribal Government Office’s
                                      Enforcement Activities From
                              Fiscal Year 2002 Through Fiscal Year 2005



change to the tax documents. However, the ITG office does not track change cases in this
manner and instead reports only the total number of change cases.
A comparison of the change and no-change rates for the ITG office shows a very high change
rate for the period of time reviewed. Of the 1,470 examinations listed in Figure 3, only 27 were
considered no-change by the ITG office. It is unlikely that this high change rate will continue
because it can, in part, be attributed to a nonrecurring legislative change.16 The legislative
change in FY 2001 allowed the tribes to pay State unemployment taxes rather than FUTA taxes.
This change generated many claims from the tribes for a refund of FUTA taxes previously paid.
By definition, this type of claim was considered a change examination, regardless of whether
there was any change to the taxpayer’s tax liability. In addition, the ITG office performs
examinations of a large number of documents that do not result in a change in historic or current
tax liabilities but may affect future filings. As discussed above, although there is no change to a
past or current liability, these information reporting examinations are considered change
examinations, but are not separately tracked to differentiate them from those change
examinations that result in a change to the underlying tax liability.
We reviewed cases involving tax liabilities by comparing the number of examinations with
dollar adjustments to the tax liabilities to the number of examinations without adjustments to the
tax liabilities. Approximately 75 percent of examinations closed during FYs 2002 through 2005
resulted in no dollar change to a past or current tax liability; 25 percent resulted in dollar
adjustments. Figure 4 shows the yearly comparisons.




16
  Consolidated Appropriations Act of 2001, Pub. L. No. 106-554, Sec. 1(a) (7) [title I, Sec. 166(b), (c)], Dec. 21,
2000, 114 Stat. 2763, 2763A-627.
                                                                                                              Page 7
                                   Statistical Portrayal of the Indian Tribal Government Office’s
                                                    Enforcement Activities From
                                            Fiscal Year 2002 Through Fiscal Year 2005



Figure 4: Number of Examinations With Adjustments Compared to Examinations
                    Without Adjustments (FYs 2002 – 2005)

                                  400
                                                351         347
                                  350
                                                                                             262
                Number of Cases




                                  300
                                  250
                                                                          165
                                  200
                                                                                143
                                  150
                                         68            98
                                  100
                                                                                        36
                                  50
                                   0
                                              2002       2003                 2004        2005
                                                                Fiscal Year

                                                      Adjustments     No Adjustments

             Source: Analysis of IRS Master File17 and ITG office case closure information.

Time expended on examinations
One tool that can be used to manage the effectiveness of the Examination Program is the amount
of time spent examining tax documents, preparing the examination report, and closing the case.
Figure 5 shows the number of examinations closed per Examination FTE decreased by more than
one-half during FYs 2002 through 2004.18 This decrease is an indication the ITG office is
examining a different mix of work, including fewer FUTA and excise tax claims and more
complex issues.




17
   The Master File is the IRS database that stores various types of taxpayer account information, including
individual, business, and employee plans and exempt organizations data.
18
   ETS data were not available for FY 2005.
                                                                                                              Page 8
                                       Statistical Portrayal of the Indian Tribal Government Office’s
                                                        Enforcement Activities From
                                                Fiscal Year 2002 Through Fiscal Year 2005



         Figure 5: Examinations Closed per Examination FTE, by Fiscal Year
                                 (FYs 2002 – 2004)

                                   70.00
                                   60.00        63.48
             Examinations Closed




                                   50.00
                                   40.00
                                                                        40.09
                                   30.00
                                   20.00                                                          25.88

                                   10.00
                                    0.00
                                                2002                    2003                      2004
                                                                     Fiscal Year

                                                        Examinations Closed per Examination FTE

          Source: Analysis of the ETS and ITG office case closure information.

We calculated the average number of staff days19 taken by the ITG office to complete the types
of examinations listed in Figure 6. This is based on the number of examinations completed and
the amount of time charged to the examinations by examination type for FYs 2002 through 2004.




19
  A measure of labor hours in which 1 staff day is equal to 8 hours. For FY 2002, 261 staff days were equal to
1 FTE or 2,088 staff hours.
                                                                                                           Page 9
                                               Statistical Portrayal of the Indian Tribal Government Office’s
                                                                Enforcement Activities From
                                                        Fiscal Year 2002 Through Fiscal Year 2005



         Figure 6: Average Staff Days per Examination, by Examination Type
                                  (FYs 2002 – 2004)
                                                                                               17.0
                                               18.0

                                               16.0
                Average Number of Staff Days




                                               14.0

                                               12.0
                                                         8.7                      9.0
                                               10.0

                                                8.0

                                                6.0

                                                4.0                                                      3.4
                                                                    0.7
                                                2.0

                                                0.0
                                                      Employment   Excise       Income     Information   Tip
                                                                            Examination Type

               Source: Analysis of ITG office case closure information.

As Figure 6 shows, the Information Return examinations took the greatest average amount of
time to complete, and the excise tax examinations took the least. The average staff days for Tip
Compliance examinations is misleading. We determined 3 cases in FY 2002 took an average of
127 staff days to complete, but the average number of staff days for Tip Compliance
examinations dropped significantly in FYs 2003 and 2004.

Adjustments, penalties, and interest applied to taxpayer accounts
Another indication of the success of the Examination Program is the additional amounts assessed
on the noncompliance identified during examinations. Penalties, interest, and additional tax
assessments to ITG office customer accounts increase tax liability. Claims generally decrease
the liability because they usually request a refund or an abatement of taxes, penalties, or interest.
Figure 7 shows the dollar differences between the Examination-related adjustments, penalties,
and interest and the nonexamination20 adjustments, penalties, and interest for the ITG office
customer base.



20
  Adjustments from outside the Examination Program include claims for FUTA taxes. These claims were
processed by the Brookhaven Campus in Holtsville, New York. The claims cases were not included as part of the
ITG office’s examination work; however, the adjustment dollars are reflected in its customers’ tax accounts.
Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers.
                                                                                                               Page 10
                   Statistical Portrayal of the Indian Tribal Government Office’s
                                    Enforcement Activities From
                            Fiscal Year 2002 Through Fiscal Year 2005



In Figure 7, we divided the net adjustments into two categories: claims for adjustment and
adjustments. Claims for adjustment are transactions that reduce the taxpayer’s tax liability;
adjustments are transactions that increase the taxpayer’s liability.
Figure 7: Examination-Related Adjustments, Penalties, and Interest Compared to
     Nonexamination Adjustments, Penalties, and Interest (FYs 2002 – 2005)
                                                        Dollars (in Thousands)

                                         Examination- Nonexamination-
                       Category            Related        Related                Totals
                 Claims for Adjustment            -$6,197          -$98,571       -$104,768
                 Adjustments                       $4,824          $130,670        $135,494
                 Penalties                         $1,141           $36,002         $37,143
                 Interest                           $551              $8,717         $9,268
                 Source: Analysis of IRS Master File data.


As Figure 7 indicates, most claims for adjustment (to reduce tax liability), adjustments (to
increase tax liability),21 penalties, and interest for ITG office customers originated from outside
the ITG office Examination Program. This likely is attributable to the numerous adjustment
actions undertaken by the campuses, such as failure to deposit penalties, interest on late
payments, and information return filing penalties. These types of assessments are often
significant for tribal entities.

Analysis of market segment examinations
The ITG office divided its customer base into three market segments to learn more about the
demographic and tax-filing characteristics that are unique to the respective market segment. The
market segments are tribes located in Alaska (Alaska), tribes with gaming (Gaming), and tribes
without gaming (Non-Gaming).




21
     ****1****
                                                                                              Page 11
                                                 Statistical Portrayal of the Indian Tribal Government Office’s
                                                                  Enforcement Activities From
                                                          Fiscal Year 2002 Through Fiscal Year 2005



                                                Figure 8: Number of Tribes and Related Entities in the
                                                            ITG Office Market Segments

                                         1400
                                                                         1,246
                                         1200
         Number of Tribes and Entities




                                         1000


                                         800
                                                                                                 Number of Tribes
                                                                                                 Number of Entities
                                         600

                                                                                        372
                                         400
                                                          264                     238
                                                    227            226
                                         200


                                           0
                                                     Alaska         Gaming       Non-Gaming
                                                                Market Segment

     Source: Analysis of active entities from the ITG Database.22

Figure 8 shows the Gaming market segment has the most active23 entities (66 percent). The
Gaming market segment includes businesses that conduct gaming (e.g., casinos) and entities
such as housing authorities or gasoline stations. Gaming operations have the greatest economic
impact of all the tribal entities.




22
   The ITG office Database was developed over the past several years and contains data from the IRS’ main database
(Master File), the Bureau of Indian Affairs, and other sources on Indian tribes and their related enterprises. The ITG
office Database records contain more than 200 data fields and include information such as tribal entity data, filing
requirements, and line-item information from filed returns such as wages paid. The ITG office Database is made up
in part by the Inventory Database, the Outreach Assignment Database, and the Tribal Compliance Database.
23
   Entities are considered active when they are in use by the tribe, or are pending use in the near future, regardless of
whether they have any current filing requirements or past filing history.
                                                                                                                 Page 12
                      Statistical Portrayal of the Indian Tribal Government Office’s
                                       Enforcement Activities From
                               Fiscal Year 2002 Through Fiscal Year 2005



               Figure 9: Examinations by Market Segment (FYs 2002 – 2005)
                                            Fiscal Year
 Market Segment          2002          2003            2004             2005         Totals        Percentages
 Alaska                        4              20               4              57            85         6%
 Gaming                      396             314             232             156         1,098        81%
 Non-Gaming                   15              73              50              35           173        13%
 Totals24                    415             407             286             248         1,356        100%
Source: Analysis of IRS Master File data and ITG office case closure information.

As shown in Figure 8, the Gaming market segment had 66 percent of the entities. Figure 9
shows the Gaming market segment had 81 percent of the examinations conducted. The Gaming
market segment reports the most employment taxes, average wages, and other compensation paid
to employees, tips, and FUTA taxes. With more entities and more associated tax dollars, it is
logical that this market segment was examined more frequently than the others. Figure 10 shows
the Gaming market segment had approximately 82 percent of adjustments.


     Figure 10: Market Segment Examinations With Adjustments (FYs 2002 – 2005)

                                               Fiscal Year
     Market Segment      2002           2003            2004            2005         Totals        Percentages
 Alaska               ****1****      ****1****       ****1****       ****1****                 7        2%
 Gaming                         59              89             137             20          305         82%
 Non-Gaming                   8               10              28              14              60       16%
                      ****1****      ****1****       ****1****       ****1****
 Totals                                                                                    372         100%
Source: Analysis of IRS Master File data and ITG office case closure information.

The Gaming market segment has the most entities, examinations, and Examination-related
adjustments. Figure 1125 shows the Gaming market segment also has the largest dollar figures
for net adjustments, penalties, and interest. The sum of total claims for adjustment (-$6,197,000)
and total adjustments ($4,824,000) indicate net adjustments reduced tax liabilities by
approximately $1.4 million, while approximately $1.7 million of additional penalties and interest
were assessed.




24
   The numbers of examination records shown in Figure 3 (1,470) and Figure 9 (1,356) are different because there
are closed examination cases for which the Employer Identification Number of the taxpayer is not marked as active
in the ITG office Database. The market segment for 114 examinations could not be identified for inactive Employer
Identification Numbers.
25
   The numbers in Figure 11 do not add up to the totals presented due to rounding.
                                                                                                        Page 13
                 Statistical Portrayal of the Indian Tribal Government Office’s
                                  Enforcement Activities From
                          Fiscal Year 2002 Through Fiscal Year 2005



     Figure 11: Examination-Related Adjustments, Penalties, and Interest by
                      Market Segment (FYs 2002 – 2005)
                                                   Dollars (in Thousands)

                 Market        Claims for
                 Segment       Adjustment     Adjustments        Penalties        Interest
              Alaska                  -$125             $41                 $11          $1
              Gaming                -$5,933          $4,587             $992           $477
              Non-Gaming              -$139            $196             $138            $74
              Totals                -$6,197           $4,824          $1,141           $551
            Source: Analysis of IRS Master File data.

Figure 12 shows the average amount per transaction for the claims for adjustment and the
adjustments, for customers examined in the three market segments. The Gaming market
segment claims for adjustment and adjustments were significantly higher than those for the
Alaska and Non-Gaming market segments.
Figure 12: Average Amount of Examination-Related Adjustment Transactions by
                     Market Segment (FYs 2002 – 2005)
                                                   Dollars (in Thousands)

                                Market         Claims for
                                Segment        Adjustment      Adjustments
                             Alaska                    -$26                 $21
                             Gaming                   -$606             $209
                             Non-Gaming              -$18             $21
                            Source: Analysis of IRS Master File data.




                                                                                              Page 14
                       Statistical Portrayal of the Indian Tribal Government Office’s
                                        Enforcement Activities From
                                Fiscal Year 2002 Through Fiscal Year 2005



Figure 1326 shows the net Examination-related adjustment dollars for each market segment by
fiscal year.
              Figure 13: Examination-Related Adjustments by Market Segment
                                    (FYs 2002 – 2005)
                                                      Fiscal Year (Dollars in Thousands)
                            Market
                            Segment          2002           2003           2004            2005          Totals
Claims for Adjustment Alaska                     -$117             $0             -$9              $0       -$125
                          Gaming               -$1,317        -$3,577          -$147          -$891       -$5,933
                          Non-Gaming                -$24         -$10           -$28              -$76      -$139


Adjustments               Alaska                      $2           $0             $39               $0        $41
                          Gaming                    $649       $2,444           $896              $597     $4,587
                          Non-Gaming                $16            $3             $76             $102       $196
Totals                                           -$790        -$1,141           $827          -$269       -$1,373
Source: Analysis of IRS Master File data.

Figure 13 shows the taxpayers’ tax liabilities were reduced by a total of approximately
$2.2 million in 3 years and increased by more than $800,000 in 1 year, for a net reduction of
approximately $1.4 million.
Figures 14 and 1527 present, by fiscal year, the penalties and interest assessed to taxpayer
accounts on which examinations were performed. Figure 14 shows penalty assessments on ITG
office customers increased from about $34,000 in FY 2002 to about $526,000 in FY 2005. This
may appear to conflict with the information presented in Figure 10, which shows the number of
examinations by year by market segment, and Figure 13, which shows the examination related
adjustments. ITG office management informed us that penalties are not related to the number of
examinations or to examination assessments, but rather are related to tax deposits. Analysis of
Master File data indicates that the majority of the penalty transactions are for failure to pay tax
timely, delinquencies for late filing, and insufficient or late deposits of taxes. The Gaming
market segment was assessed approximately 87 percent of the total penalties. This is in line with
the number of examinations performed in the Gaming market segment.




26
     The numbers in Figure 13 do not add up to the totals presented due to rounding.
27
     The numbers in Figures 14 and 15 do not add up to the totals presented due to rounding.
                                                                                                                  Page 15
                     Statistical Portrayal of the Indian Tribal Government Office’s
                                      Enforcement Activities From
                              Fiscal Year 2002 Through Fiscal Year 2005



              Figure 14: Examination-Related Penalties by Market Segment
                                   (FYs 2002 – 2005)
                                               Fiscal Year (Dollars in Thousands)
           Market Segment          2002               2003           2004           2005        Totals
                28
         Alaska                           $6                 $0             $5             $0        $11
         Gaming                        $27                $314          $132          $520          $992
         Non-Gaming                       $1                 $43          $88              $6       $138
         Totals                        $34                $357          $224          $526        $1,141
        Source: Analysis of IRS Master File data.

Figure 15 shows interest assessments on ITG office customers fluctuated throughout the 4 years
reviewed. The Gaming market segment was assessed approximately 87 percent of the total
interest.
              Figure 15: Examination-Related Interest by Market Segment
                                  (FYs 2002 – 2005)
                                               Fiscal Year (Dollars in Thousands)
           Market Segment          2002               2003           2004           2005        Totals
         Alaska                           $0                  $0            $0             $0            $1
         Gaming                       $126                $177          $126           $47          $477
         Non-Gaming                       $0                 $27          $45              $2        $74
         Totals                      $127                 $204          $172           $49          $551
        Source: Analysis of IRS Master File data.

I.R.C. § 6700 referrals
I.R.C. § 670029 imposes a penalty for promoting an abusive tax shelter while making a false or
fraudulent misrepresentation as to any material matter or for making a material gross valuation
overstatement as to any material matter. Through the end of FY 2005, the ITG office had made
four I.R.C. § 6700 referrals to the SB/SE Division Lead Development Center.




28
   The Alaska market segment had under $150 in Examination-related penalties assessed in FY 2005. This amount
rounded to zero when the data were rounded to thousands.
29
   I.R.C. § 6700 (2004).
                                                                                                              Page 16
                     Statistical Portrayal of the Indian Tribal Government Office’s
                                      Enforcement Activities From
                              Fiscal Year 2002 Through Fiscal Year 2005



                                                                                                 Appendix I


        Detailed Objectives, Scope, and Methodology

Our overall objectives were to review relevant Fiscal Years (FY) 2002 through 2005 statistical
data for the Indian Tribal Governments (ITG) office enforcement activities and analyze the data
for trends. To accomplish our objectives, we:
I.      Identified data relating to the ITG office enforcement activities.
        A. Obtained the Tax Exempt and Government Entities Division Technical Time
           Reporting System30 data for FYs 2002 through 2005 to determine the time applied to
           examinations.
        B. Obtained the ITG office Database31 (cumulative through the end of FY 2005) to
           determine the population and market segments of the ITG office customers.
        C. Obtained Internal Revenue Service Master File information to identify all closed
           examinations conducted on customers and associated information such as dollars
           assessed.
        D. Interviewed ITG office management to determine if there are factors that may have
           had an effect on enforcement indicators during FYs 2002 through 2005.
        E. Interviewed ITG office management to identify any other enforcement indicators
           used within the office.
        F. Validated the ITG office Database information by relying on previous Treasury
           Inspector General for Tax Administration audit work32 that used and established the

30
   A stand-alone DOS-based software application designed and developed to enable electronic tracking and
reporting of technical time.
31
   The ITG office Database was developed over the past several years and contains data from the Internal Revenue
Service’s main database (Master File), the Bureau of Indian Affairs, and other sources on Indian tribal governments
and their related enterprises. The ITG office Database records contain more than 200 data fields and include
information such as tribal entity data, filing requirements, and line-item information from filed returns such as
wages paid. The ITG office Database is made up in part by the Inventory Database, the Outreach Assignment
Database, and the Tribal Compliance Database. The Master File is the Internal Revenue Service’s database that
stores various types of taxpayer account information, including individual, business, and employee plans and exempt
organizations data.
32
   The Process for Assigning Cases Should Be Strengthened to Provide Better Coverage to Indian Tribal
Governments Most in Need of Compliance Checks (Reference Number 2004-10-191, dated September 2004) and
The Indian Tribal Governments Office Can Improve the Effectiveness, Consistency, and Efficiency of Compliance
Checks (Reference Number 2005-10-158, dated September 2005).
                                                                                                         Page 17
                     Statistical Portrayal of the Indian Tribal Government Office’s
                                      Enforcement Activities From
                              Fiscal Year 2002 Through Fiscal Year 2005



             validity of the data. The Master File information was validated by relying on the
             Treasury Inspector General for Tax Administration Information Systems Programs
             Electronic Data Processing Audit Support group’s documentation ensuring the data
             extracted from the Business Master File were an exact replica and the character of the
             data was not changed.
II.      Analyzed the data for trends in enforcement activities for FYs 2002 through 2005.
         A. Determined staffing metrics, such as the time applied to examinations, and the
            average staff days per examination type, by fiscal year.
         B. Determined fiscal year examination results by market segment and type of case.
         C. Identified the number of Internal Revenue Code Section 670033 cases referred to the
            Small Business/Self-Employed Division or the Criminal Investigation function and
            determined the current status or final outcome of each case.




33
 This Section imposes a penalty for promoting an abusive tax shelter while making a false or fraudulent
misrepresentation as to any material matter or for making a material gross valuation overstatement as to any material
matter.
                                                                                                           Page 18
                Statistical Portrayal of the Indian Tribal Government Office’s
                                 Enforcement Activities From
                         Fiscal Year 2002 Through Fiscal Year 2005



                                                                             Appendix II


                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Acting Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Lead Auditor
Kenneth C. Forbes, Senior Auditor
Arlene Feskanich, Senior Information Technology Specialist




                                                                                    Page 19
                Statistical Portrayal of the Indian Tribal Government Office’s
                                 Enforcement Activities From
                         Fiscal Year 2002 Through Fiscal Year 2005



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Indian Tribal Governments, Tax Exempt and Government Entities Division
SE:T:GE:ITG
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 20
                         Statistical Portrayal of the Indian Tribal Government Office’s
                                          Enforcement Activities From
                                  Fiscal Year 2002 Through Fiscal Year 2005



                                                                                                  Appendix IV

                                          List of Tax Forms

      Form                                                        Title
    W-2G             Certain Gambling Winnings
    11-C             Occupational Tax and Registration Return for Wagering
    720              Quarterly Federal Excise Tax Return
    730              Monthly Tax for Wagers
    940 Series       Employer’s Annual Federal Unemployment (FUTA) Tax Return
    941 Series       Employer’s Quarterly Federal Tax Return
    943              Employer’s Annual Federal Tax Return for Agricultural Employees
    945              Annual Return of Withheld Federal Income Tax
    1042 Series      Annual Withholding Tax Return for U.S. Source Income of Foreign Persons
    1065 Series      U.S. Return of Partnership Income
    1096             Annual Summary and Transmittal of U.S. Information Returns
                 1
    1099 Series      Various Informational Returns
                      1099-A         Acquisition or Abandonment of Secured Property
                      1099-B         Proceeds From Broker and Barter Exchange Transactions
                      1099-C         Cancellation of Debt
                      1099-CAP       Changes in Corporate Control and Capital Structure
                      1099-DIV       Dividends and Distributions
                      1099-G         Certain Government Payments
                      1099-H         Health Coverage Tax Credit (HCTC) Advance Payments
                      1099-INT       Interest Income
                      1099-LTC       Long Term Care and Accelerated Death Benefits
                      1099-MISC Miscellaneous Income
                      1099-OID       Original Issue Discount
                      1099-PATR Taxable Distributions Received from Cooperatives
                      1099-Q         Payments From Qualified Education Programs (Under Sections 529 and 530)
                      1099-R         Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans, IRAs,
                                     Insurance Contracts, etc.
                      1099-S         Proceeds From Real Estate Transactions
                      1099-SA        Distributions From an HSA, Archer MSA, or Medicare Advantage MSA
    1120 Series      U.S. Corporation Income Tax Return
    2290             Heavy Highway Vehicle Use Tax Return
    8027             Employers Annual Information Return of Tip Income and Allocated Tips


1
    IRA - Individual Retirement Arrangement; HSA - health savings account; MSA - medical savings account.
                                                                                                             Page 21
